/\r

to
No.

n-M7?
3fo mt

g>vwxtmt Court of tf)r ®mteb g>tatt*
Robert K. Zabka and Debra Zabka,
Petitioners,
v.
United States of America and
Receiver Timothy L. Bertschy,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Robert K. Zabka
Debra Zabka
8515 Chief Road
Charleston, Illinois 61920-8217
Phone: (217) 345-5265
Zabka@live.com
Pro Se Petitioners

[ RECEIVED

\

£

V

D

Questions Presented
The Circuits are Conflicted
The First and Second Circuits are in conflict with
the Seventh Circuit as to whether the order
appointing a receiver is the final appealable order, or
whether some later order respecting that
receivership is the appealable order. The relatively
few precedential Federal Circuit decisions respecting
orders appointing a receiver draw no uniform
standard of what constitutes a final appealable
order; hence, litigants and courts are unsure of when
an appeal can be taken. This lack of uniformity has
resulted in conflicting, hyper-technical, and unclear
court analysis, compelling litigants to appeal early
and often. Such uncertainty foments serial appeals,
frustrates a clear and regular flow of procedure, even
resulting in wrongful loss of property. Given this
state of procedural uncertainty, the
First Question is
Where the court clerk has entered the final
appealable judgment, and the district court judge has
. initialed it as such, and then the litigant appeals
from that final judgment and a subsequent order
appointing a receiver, can the appellate court bar
that appeal, stating that the district court clerk erred
in entering that judgment, and that the litigant
failed to timely appeal from a later modification of
the receivership that the Seventh Circuit deemed to
be the final judgment?

1

Received
MAR 1 3 2020

t

A Miscarriage of Justice
Where the IRS has timely notice of a protected
claim respecting net-operating-loss carrybacks and
carryforwards, the government cannot lawfully
disallow them. The IRS approved the Petitioners’
carryforward and carryback net operating losses, but
the Department of Justice reversed them. But once
the IRS has notice of carryforward and carryback net
operating losses, these losses become the taxpayer’s
protected claim, and as such the government cannot
refuse them. Moreover, it is improper that the
government conceded, post judgment on appeal, an
abatement from an audit reconsideration that the
IRS approved nearly six years prior to this action,
but then denied the Zabkas’ protected claim to
carryback net operating losses against the corrected
figure. The
Second Question is
Where the government has timely notice of a
protected
claim,
respecting
net-operating-loss
carrybacks and carryforwards, does the government’s
denial of that claim violate constitutional due
process, where that denial results in a clear
miscarriage of justice?
Concerning the Third Question
The IRS, the Seventh Circuit, and this Court all
agree that the government cannot sell a limited
partnership’s property to satisfy the individual tax
liability of a partner; thereby distinguishing
partnership property from the partners’ property.

n

United States v. Craft, 535 U.S. 274, 286 (2002).
However, the Seventh Circuit found that that
difference “evaporates in this case” because the
general partner, Dunamis, LLC, is a profits-only
partner. U.S. v. Antiques Ltd., No. 13-2918, at 7 (7th
Cir. July 28, 2014). Congress codified 26 U.S.C.
6323(f) to protect the normal functioning of
commerce, The Seventh Circuit agreed with the
Petitioners that in order for the government to
enforce its liens against the real property and the
general partnership interests at issue, the
government needed to show that it had perfected its
liens under Illinois law prior to the transfers it seeks
to challenge, or show that the transfers were
fraudulent; but the government made no such
showing. The
Third Question is
Can the government sell a limited partnership’s
real property in order to satisfy an individual
partner’s tax liability, where the general partner of
the limited partnership is a profits-only partner?

ni

Parties to the Proceeding
The caption above lists all parties to the
proceedings in this Court.

Rule 14.1(b)(iii) Statement
The following federal trial and appellate court
proceedings are directly related to the abovecaptioned case in this Court.
Robert K. Zabka, Debra Zabka, Antiques Limited
Partnership, Brookstone
Hospitality
Limited
Partnership, ZFP Limited Partnership,
and
Dunamis, LLC v. United States of America and
Receiver Timothy L. Bertschy, Case No. l:10-cv01078-MMM-JAG (C.D. Ill.). The central district of
Illinois entered judgment regarding Petitioners’
property in this matter on June 8, 2018.
Robert K. Zabka, Debra Zabka, Antiques Limited
Partnership, Brookstone
Hospitality
Limited
Partnership, ZFP Limited Partnership,
and
Dunamis, LLC v. United States of America and
Receiver Timothy L. Bertschy, Consolidated Case
Nos. 18-1454 (lead) and 18-1916 (7th Cir.). The
Seventh Federal Circuit Court of Appeals entered
judgment in this matter on October 3, 2019.

IV

Table of Contents
Questions Presented...........

1

Parties to the Proceeding ..
Rule 14. l(b)(iii) Statement

IV
IV

vm

Table of Authorities
Petition for Writ of Certiorari

1

Opinions and Orders Below

1

Jurisdiction

2

Constitutional and Statutory
Provisions Involved............

2

Introduction and Statement of the Case

4

Reasons for Granting the Petition....

7

A. Conflict among the circuits 7
B. The court below sanctioned
departure from the accepted and
usual course of proceedings 8
C.

The lower court’s decision on an
important federal question conflicts
with a ruling of the Supreme Court.

8
9

Conclusion
Appendices
A. Order of the United States District Court
for the Central District of Illinois (also

v

J

7th Cir. 14-3117 Dkt. 18..

App. 69

I.

Final Order of the Central District approv­
ing distribution of funds from sales of
limited partnership property to pay tax
debts of limited partners.
.App. 72
ILCD Dkt. 451

J.

Final judgment of the Central District.
ILCD Dkt. 452..........................................

App. 76

K. Final Order of the Central District as
amended by permission of the Seventh
Circuit.
.App. 79
ILCD Dkt. 451
L. Final Order of the Seventh Circuit.
7th Cir. 18-1454 (Consolidated) Dkt. 71....App. 81
M. Final judgment of the Seventh Circuit.
7th Cir. 18-1454 (Consolidated) Dkt. 72....App. 85

Vll

Table of Authorities
Federal Cases
Adler v. Nicholas, 166 F.2d 674 (10th Cir. 1948)......6
Chase Manhattan Bank v. Turabo Shopping
Center, 683 F.2d 25 (1st Cir. 1982)..........

7

Night Hawkes Leasing Co. v. United States,
18 F. Supp. 938 (Fed. Cl. 1937)...............

5

Srirarn v. Preferred Income Fund III Ltd.
Partnership, 22 F.3d 498 (2d Cir. 1994)

7

Stuart v. United States,
130 F. Supp. 386 (Fed. Cl. 1955)

5

United States v. Commercial Nat, Bank of
Peoria, 874 F.2d 1165 (7th Cir. 1989)..

5

United States v. Craft,
535 U.S. 274 (2002)

iii, 6—8

United States u. Kaufman,
267 U.S. 408, 45 S.Ct. 322 (1925)

6

United States v. Worley,
213 F.2d 509 (6th Cir. 1954)

6

Constitutional Provisions
2

Fifth Amendment

vrn

Federal Statutes
7

26 U.S.C. § 6321
26 U.S.C. § 6323(a)

2,7

26 U.S.C. § 6323(f)

iii, 5, 7

28 U.S.C. § 959(b).

2

28 U.S.C. § 1254(1)

2

State Statutes
Illinois Compiled Statute 805 ILCS 215/703

3

Rules of the U.S. Supreme Court
2

Supreme Court Rule 13.1
Supreme Court Rule 14. l(b)(iii)

IX

IV

Petition For A Writ Of Certiorari
The Petitioners, Robert K. Zabka and Debra
Zabka, petition this Court for a Writ of Certiorari to
review the judgment and opinion of the United
States Court of Appeals for the Seventh Circuit, filed
on October 3, 2019.
Opinions and Orders Below
The appellate opinion from which Petitioners
appeal is reported at Docket 71, under Appellate No.
18-1454 in the United States Court of Appeals for the
7th Circuit. (Append. L).
The final order of the district court is reported at
Docket 478 (Append. K), under Case No. l:10-cv01078, in the United States District Court for the
Central District of Illinois—as amended from Docket
451 (Append. I) by permission of the United States
Court of Appeals for the 7th Circuit, under Appellate
No. 18-1454 (consolidated).
Additional underlying appellate opinions of
which review is sought are reported at Docket 18 of
Appellate No. 14-3117 (Append. H) and Docket 98 of
Appellate No. 12-2998 (Append. F), in the United
States Court of Appeals for the 7th Circuit.
Additional underlying orders of the district court
of which review is sought are reported at Dockets 64,
111, 144, 164, 183 (Append. A-E), and 343. (Append.
G).

1

Jurisdiction
The court of appeals entered the opinion of which
the Petitioners request review on October 3, 2019.
(Append. M). This petition is filed within 90 days of
that date pursuant to the Rules of the United States
Supreme Court, Rule 13.1. The jurisdiction of this
Court is invoked under 28 U.S.C. §1254(1).

Constitutional and Statutory
Provisions involved
U.S. Constitution, Amendment V
No person shall ... be deprived of . . . property,
without due process of the law; ...
26 U.S.C. 6323(a)
The lien imposed by section 6321 shall not be valid
as against any purchaser, holder of a security
interest, mechanic’s lienor, or judgment lien creditor
until notice thereof which meets the requirements of
subsection (f) has been filed by the Secretary.
28 U.S.C. 959(b)
Except as provided in section 1166 of title 11, a
trustee, receiver or manager appointed in any cause
pending in any court of the United States, including
a debtor in possession, shall manage and operate the
property in his possession as such trustee, receiver or
manager according to the requirements of the valid
laws of the State in which such property is situated,
in the same manner that the owner or possessor
thereof would be bound to do if in possession thereof.

2

Illinois Compiled Statute 805 ILCS 215/703
(a) On application to a court of competent
jurisdiction by any judgment creditor of a
partner or transferee, the court may charge the
transferable interest of the judgment debtor
with payment of the unsatisfied amount of the
judgment with interest. To the extent so
charged, the judgment creditor has only the
rights of a transferee. The court may appoint a
receiver of the share of the distributions due or
to become due to the judgment debtor in respect
of the partnership and make all other orders,
directions, accounts, and inquiries the judgment
debtor might have made or which the
circumstances of the case may require to give
effect to the charging order.
(b) A charging order constitutes a lien on the judg­
ment debtor's transferable interest. The court
may order a foreclosure upon the interest sub­
ject to the charging order at any time. The pur­
chaser at the foreclosure sale has the rights of a
transferee.
(c) At any time before foreclosure, an interest
charged may be redeemed:
(1) By the judgment debtor;
(2) With property other than limited partner­
ship property, by one or more of the other
partners; or
(3) With limited partnership property, by the
limited partnership with the consent of all
partners whose interests are not so
charged.
(d) This Act does not deprive any partner or trans­
feree of the benefit of any exemption laws ap-

3

(e)

plicable to the partner’s or transferee’s transfer­
able interest.
This Section provides the exclusive remedy by
which a judgment creditor of a partner or
transferee may satisfy a judgment out of the
judgment
debtor’s
transferable
interest.
(Source: P.A. 93-967, eff. 1-1-05).

Introduction and
Statement of the Case
Uncertainty in the law respecting what
constitutes a final and appealable order in the
granting of motions for receiverships leaves courts
and litigants no clear rule, resulting in multiple,
unnecessary appeals. Such conflict among the
circuits is an issue ripe for correction. This Court
should take up the question and determine clearly
what constitutes a final and appealable order when
the district court appoints a receiver.
On June 29, 2012, the Clerk of the district court
entered an order initialed “MMM” (Judge Michael M.
Mihm), hand-dated, captioned “Judgment in a civil
case,” with the words “Judgment is entered in favor
of the Plaintiff,” and “CASE TERMINATED.”
The Seventh Circuit later held that any change
in the terms of the receivership created a new and
different appealable judgment, and nullified the
appealability of the underlying order appointing a
receiver — a slippery standard, complicating more
than elucidating the appeal process, the courts, and
the litigants.
The Zabkas had given notice to the IRS of their
entitlement to net-operating-loss carrybacks and

4

carryforwards for tax years 1996—99, eliminating
most (if not all) of their tax liability, and the IRS
agreed. Though the IRS recognized these protected
claims, the Justice Department refused to, resulting
in a miscarriage of justice against the Zabkas. The
Zabkas had given information to the IRS, putting the
Service on notice that a valid protective claim
existed.
The Zabkas asserted three protected claims: (1)
carryforward losses from 1994-95, (2) carryback
losses from tax years 2000 and 2001, and (3) an audit
reconsideration that the IRS had approved, and sent
for processing.
To fulfill his notice obligations in protecting his
claims, a taxpayer may rely on other documents,
conversations, or correspondence. Such is the case
especially when a taxpayer cannot claim an
immediate refund because his right to a refund
cannot vest until pending litigations is settled. (See,
e.g., Stuart v. United States, 130 F. Supp. 386, 389
(Fed. Cl. 1955); Night Hawkes Leasing Co. v. United
States, 18 F. Supp. 938 at 942 (Fed. Cl. 1937). U.S. v.
Commercial Nat. Bank of Peoria, 874 F.2d 1165,
1171 (7th Cir. 1989)).
The Zabkas contend that (1) the liens do not
attach to the property of the Partnerships or of the
general partner, Dunamis LLC; and that (2) Federal
tax liens are not valid against purchasers without
record notice satisfying the requirements of 26
U.S.C. 6323(f) — codified by Congress to protect the
normal functioning of commerce.
The Limited Partnerships were purchasers of the
sixteen parcels of real property at issue, and
Dunamis, LLC was a purchaser of the general
partnership interest at issue. The Zabkas point out

5

that the government has never alleged their notice
was filed prior to any transfer of any of the subject
properties.
The Zabkas had exchanged real property into the
Limited Partnerships. The deeds of these transfers
were recorded in 2003, prior to the government’s first
recorded lien on 15 July 2004. Likewise, a Certificate
of Limited Partnership documenting the Zabkas’
withdrawal and Dunamis, LLC’s admission as
General Partner of the Limited Partnerships was
recorded in December of 2003, also prior to the
government’s first recorded lien of 15 July 2004.
The Limited Partnerships are not subject to the
the Zabkas.
debts of the Limited Partners
Following this fundamental principle in a
comparable case, the Supreme Court held that “[t]he
Federal government may not compel the sale of
partnership assets.” United States v. Craft, 535 U.S.
274, 286 (U.S. 2002) (distinguishing partnership
property from jointly owned property of a married
couple); United States v. Worley, 213 F.2d 509, 512
(6th Cir. 1954) (further referencing United States v.
Kaufman, 267 U.S. 408, 45 S.Ct. 322 (1925) and
Adler v. Nicholas, 166 F.2d 674, 678 (10th Cir. 1948)
(“Partnership property is not, therefore, subject,
during the life of the partnership, to the debts of the
individual partners.”)). Moreover, the LPs and LLC
were, at all times relevant, in good standing with the
Illinois Secretary of State.
Simply put, the Zabkas argued that in order for
the government to enforce its liens against the real
property and the general partnership interests at
issue, the government needed to show that it had
perfected its liens under Illinois law prior to the
transfers it challenges, or show that the transfers

6

were fraudulent under Illinois law. The government
offered no argument or evidence in support.
Title 26 U.S.C. § 6323(a) is the controlling
federal statute for actions where the government
liens real property that the taxpayers in question do
not own. The lien that § 6321 imposes shall not be
valid as against any purchaser, holder of a security
interest, mechanic’s lienor, or judgment lien creditor
until notice thereof which meets the requirements of
subsection (f) has been filed by the Secretary.
Reasons for Granting the Petition
Uniform resolutions of the law break down when
circuit courts issue judgments in cases on like facts
according to different standards. This Court should
grant the writ of certiorari in order to resolve such a
conflict in the federal circuit courts of appeals, and to
determine the continued validity of United States v.
Craft, 535 U.S. 274 (2002). By so doing, a litigant can
have the confidence of being able to identify with
certainty at what point his case is final and
appealable.
Appellate courts need, and litigants are entitled
to, a simple clarity, whereby all may know of a
certainty whether an order granting the appointment
of a receiver is final, and therefore appealable. The
First and Second Circuits find bright-line practicality
in declaring that the simple order granting the
appointment of a receiver is the final order,
triggering the right to appeal, and have found that
an order appointing a receiver need not specifically
name the receiver in order to be appealable. (Chase
Manhattan Bank v. Turabo Shopping Center, 683
F.2d 25 (1st Cir. 1982); Sriram v. Preferred Income

7

Fund III Ltd. Partnership, 22 F.3d 498 (2d Cir.
1994). The First and Second Circuits further agree
that the district court’s later determining the name
of a receiver, or creating and then changing specific
terms of a receivership, are not a solid standard
event, triggering one’s right to appeal. The majority
of the Circuits favor a simpler standard. The Seventh
Circuit’s ruling respecting what constitutes a final
order in granting of a motion to appoint a receiver
and triggering the right to appeal, has split the
Circuits.
The Seventh Circuit’s standard is difficult to pin
down as to what order is appealable. The instant
case is telling. The Seventh Circuit ruled that an
order granting a motion to appoint a receiver was not
appealable because it did not name the receiver.
However, the only adjustment the district court
proposed when it appointed the receiver was a
change in the terms of the receivership — tightening
the reigns on the receiver. It is impractical to declare
every change concerning a receivership appealable.
Such an arbitrary standard would clog the courts
with split appeals from the same cases to address
adjustments in receiverships once appointed.
The court below decided a question of federal law
that conflicts with this Court in United States v.
Craft, 535 U.S. 274, 286 (2002). Although the IRS,
the Seventh Circuit, and this Court agree that the
Zabkas’ asserted tax liability could not be satisfied by
selling an LP’s real property, the Seventh Circuit
erred in affirming the district court’s order to sell the
LP’s real property, thereby contradicting this Court’s
ruling in Craft. This Court should grant this petition
in order to clarify its ruling and position.

8

The Zabkas preserved their protected claims.
The Seventh Circuit appellate court erred in
affirming the district court’s order to deny the
protected claims, causing the loss of millions of
dollars in real property and resulting in a gross
miscarriage of justice. Thus did the court below so far
depart from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Court’s
supervisory power.
Conclusion
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Robert K. Zabka
Debra Zabka
18515 Chief Road
Charleston, Illinois 61920-8217
Phone: (217) 345-5265
Zabka@Iive.com
Pro Se Petitioners

9

